   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2008 AND FY 2007
      Federal Aviation Administration’s
    Administrative Services Franchise Fund

        Report Number: QC-2009-006
       Date Issued: November 10, 2008
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                                 Date:    November 10, 2008
           Financial Statements for FY 2008 and FY 2007,
           Federal Aviation Administration’s
           Administrative Services Franchise Fund
           Report Number: QC-2009-006

  From:    Rebecca C. Leng                                                        Reply to
                                                                                  Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Acting Federal Aviation Administrator
           Mike Monroney Aeronautical Center Director

           The audit of the Federal Aviation Administration’s Administrative Services
           Franchise Fund Financial Statements as of and for the year ended
           September 30, 2008, was completed by the Reznick Group, P.C., of Bethesda,
           Maryland (see Attachment). We performed a quality control review of the audit
           work to ensure that it complied with applicable standards. These standards
           include Generally Accepted Government Auditing Standards; and Office of
           Management and Budget Bulletin 07-04, “Audit Requirements for Federal
           Financial Statements,” as amended.

           The Reznick Group concluded that the financial statements present fairly, in all
           material respects, the Franchise Fund’s assets, liabilities, and net position as of
           September 30, 2008; and net costs; changes in net position; and budgetary
           resources for the year then ended, in conformity with accounting principles
           generally accepted in the United States. Last year’s Franchise Fund financial
           statements were audited by other auditors, who also expressed an unqualified
           opinion on those statements. 1

           The Reznick Group reported three significant internal control deficiencies and one
           instance of noncompliance with laws and regulations.


           1
               OIG Quality Control Review of the Audited Financial Statements for FY 2007 and FY 2006, Federal Aviation
               Administration Administrative Services Franchise Fund, Report Number QC-2008-010, November 13, 2007.
                                                                               2


Significant Deficiencies

   1. Reconciliation Variances – Unfilled Customer Orders
   2. Timely Liquidation of Advances
   3. Collection of Government Accounts Receivable

Noncompliance with Laws and Regulations

   1. Noncompliance with Public Law 104-205, Federal Aviation Administration
      - Administrative Services Franchise Fund

The Reznick Group made six recommendations for corrective action. Therefore,
we are making no additional recommendations. Franchise Fund officials
concurred with the significant deficiencies and noncompliance, and likewise
agreed with the recommendations. Franchise Fund officials committed to
implement the corrective actions by January 31, 2009. In accordance with DOT
Order 8000.1C, the corrective actions taken in response to the recommendations
are subject to follow-up.

In our opinion, the audit work performed by the Reznick Group complied with
applicable standards.

We appreciate the cooperation and assistance of Federal Aviation Administration,
Franchise Fund, and Reznick Group representatives. If we can answer any
questions, please call me at (202) 366-1407; or Earl C. Hedges, Program Director,
at (410) 962-1729.

Attachment

                                       #
